APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order in the Commonwealth of
Kentucky, Boone Circuit Court,
Division III
(April 2, 2019) . . . . . . . . . . . . . . . . App. 1
Appendix B O r d e r
Denying
Motion for
I nt e r l o c u t o r y R e l i e f i n t he
Commonwealth of Kentucky, Court of
Appeals
(June 26, 2019) . . . . . . . . . . . . . . App. 17
Appendix C Order Denying Petition for Cr 65.09
Relief in the Supreme Court of Kentucky
(August 29, 2019) . . . . . . . . . . . . App. 58
Appendix D U.S. Const., Amend I . . . . . . . . . App. 60
U.S. Const., Amend XIV . . . . . . . App. 60

App. 1

APPENDIX A
COMMONWEALTH OF KENTUCKY
BOONE CIRCUIT COURT
DIVISION III
CASE NO. 19-CI-00357
[Filed April 2, 2019]
_________________________________
JEROME KUNKEL, et al.
)
PLAINTIFF
)
)
VS.
)
)
NKY INDEPENDENT HEALTH )
DEPARTMENT, et al.
)
DEFENDANTS
)
________________________________ )
ORDER
The Court conducted a hearing on Plaintiffs’ Motion
for a Temporary Restraining Order/Preliminary
Injunction on April 1, 2019. The Court heard testimony
from Karen Kunkel, Jerome Kunkel, Zack Raney, Toni
Bark, M.D. and Garry Marshall, M.D. The Court
having reviewed the Plaintiffs’ Motion, Defendants’,
Northern Kentucky Independent District Board of
Health (NKIDHD), Boone County Local Board of
Health, Zack Raney and Lynne Sadler, M.D., M.P.H.,
Memorandum in Opposition, having considered the
testimony presented, and having heard argument from

App. 2
counsel, and the Court being in all ways sufficiently
advised, finds as follows:
Prior to conducting the Hearing, the Court
addressed Motions to Intervene fi led by Seante Carter,
Christina Bell, Maria Kunkel and David Kunkel as
next friends and guardians of minors. There was no
opposition to the Motions. The Court will utilize
Jerome Kunkel as the Plaintiff in the following Order,
however it will also apply to Intervening Plaintiffs.
Jerome Kunkel is requesting that this Court grant
a Temporary Restraining Order and/or Preliminary
Injunction to prevent the Northern Kentucky
Independent District Health Department (“NKIDHD”)
from enforcing its Activity Ban and School Ban on
Plaintiff. The Court may only grant a restraining order
under CR 65.03(1), or a temporary injunction under CR
65.04, if the movant sets forth through a verified
complaint or affidavit specific facts that show the
movant’s rights are being, or will be violated by the
adverse party, and that the movant will suffer
immediate and irreparable injury, loss or damage
before the adverse party or his attorney can be heard in
opposition. These forms of relief cannot be granted on
the grounds of mere anticipated danger, requiring a
reasonable probability that injury will occur if the
order is not granted. Maupin v. Stansbury, 575 S.W.2d
695, 698 (Ky. App. 1978).
Jerome Kunkel is an 18-year-old high school senior
at Assumption Academy in Walton, Boone County,
Kentucky. He has played basketball for Assumption
since 2015 and is also on the Assumption baseball
team. On February 5, 2019, Vanessa Dredger, the

App. 3
Registrar at Assumption, contacted NKIDHD to
disclose that six cases of suspected Varicella (“chicken
pox”) had been reported by students enrolled at the
school. She further reported that out of Assumption’s
approximately 240 students, only 18% of the student
body had received all of their vaccinations. In response,
Raney, the Epidemiology Manager and Carolyn
Swisshelm, Communicable Disease Nurse with
NKIDHD, informed Dredger and Assumption that they
should monitor the school and its associations of
symptoms to watch for and to request self-exclusion of
those suspected of having chicken pox. They also
drafted an advisory letter regarding outbreak safety to
be distributed to the parents of Assumption students.
which advised on the symptoms of the illness and a
course of action should their child start to exhibit
symptoms. Assumption distributed said letter to the
parents on February 5, 2019. On February 13, 2019,
Dredger emailed the NKIDHD and reported an
additional four cases. As of February 21, 2019, there
were a total of eighteen cases at the affiliated schools—
sixteen in Our Lady of the Sacred Heart Elementary
School which is located across the street, and two at
Assumption, which is located under the church.
Raney was concerned, noting a three-fold increase
in the suspected cases at one site. He and Swisshelm
met with Julie Miracle, R.N., Communicable Disease
Nurse for Kentucky, Dr. Doug Thoroughman, Kentucky
State Epidemiologist and Stephanie Vogel, NKIDHD
Population Health Manager. They learned that
Assumption was scheduled to engage in competitions,
tournaments, and other extracurricular events with
schools across Kentucky, Ohio, and Indiana in the

App. 4
following weeks, and fearing exposure that could lead
to further outbreaks, felt it necessary to limit
Assumption’s interactions with other schools. NKIDHD
drafted a second letter for distribution to the parents of
children who attend Assumption on February 21, 2019,
which reiterated the dangers of Varicella and the
appropriate course of treatment should a child have
symptoms. This letter also advised parents that, for a
period of 21 days after the onset of a rash for the last ill
student, all extracurricular events were postponed in
an effort to limit exposure to other students they may
come in contact with. This letter was sent by NKIDHD
to Assumption’s Registrar for distribution to parents
and began the “Extracurricular Restriction.”
On or about February 22, 2019, Father Muscha, the
Principal and Priest for Assumption Academy
contacted Raney to clarify the terms of the restriction.
Raney explained that the restriction applied to all
extracurricular activities in which “students from
Assumption are going into other schools/public areas or
the public/other schools are coming to Assumption.”
Shortly after their conversation ended, Father Muscha
contacted Raney again to discuss the restriction,
inquiring if the boys’ basketball team could somehow
compete in the state tournament despite the
restriction. None of the team members had received a
Varicella vaccination and were, therefore, presumed to
be nonimmune and potential carriers for the disease.
However, the NKIDHD staff came to an agreement
with Father Muscha that each member of the
basketball team could undergo a Varicella titer test
and provide the results to the NKIDHD. If the test
indicated that a player was immune, he would be

App. 5
permitted to compete. The test results indicated that
only two of the team’s members were nonimmune. One
of those was Jerome Kunkel and, therefore, he was not
permitted to play in the tournament. He agrees he has
not received the vaccine, opposing it on the religious
ground that it is derived from aborted fetal cells.
On or about February 23, 2019, Kunkel was
informed he could not attend or play in any basketball
games or any other extracurricular activities involving
other schools, including upcoming baseball games or
scrimmages. At that time, he was permitted to attend
school, and was not otherwise precluded from going out
in public.
On February 25, 2019, NKIDHD staff received a
copy of an email from Julie Miracle to Bill Kunkel,
Jerome’s father, summarizing a telephone conversation
they had. She explained the rationale behind the
restriction and provided copies of the relevant statutory
and regulatory provisions authorizing NKIDHD to
enact measures to control the outbreak.
On February 26, 2019, Jerome Kunkel and his
parents met with Raney and Swisshelm to discuss the
rational and policy behind the restriction. Jerome
Kunkel alleges the NKIDHD officials made derogatory
comments regarding his religious opposition to the
Varicella vaccine, and that the extracurricular activity
ban was put in place to punish the parishioners at
Assumption and at the school for their vaccination
beliefs and not an actual concern for public health.
On March 9, 2019, NKIDHD received
documentation confirming that a student at

App. 6
Assumption who had been treated at Cincinnati
Children’s Hospital with joint pain and difficulty
moving limbs, was given a definitive diagnosis of
Varicella. This child had developed symptoms
suspected to indicate a superinfection developed
secondary to the Varicella virus. As of March 14, 2019,
Assumption’s outbreak had grown to a total of thirtytwo suspected cases, 13% of the student body, and a
68% increase in the number of suspected cases.
On March 14, 2019, the NKIDHD staff, Raney,
Vogel and Dr. Lynne Saddler requested a conference
call with State Public Health officials, Miracle and
Thoroughman, to discuss the next step to control the
outbreak at Assumption. Based on the conference,
NKIDHD drafted a third letter to Assumption parents,
informing them that the school continued to experience
an outbreak of an illness characterized by a blister- like
rash, presumed to be Varicella, and implementing an
Attendance Restriction for those students who could
not show proof that they were vaccinated or immune
from the disease. This letter was sent to the Registrar
of Assumption on March 14, 2019 for distribution. The
underlying case was filed that same day. Jerome
Kunkel argues that this attendance restriction was put
into place because of his threat to file suit.
Pursuant to CR 65.04, a temporary injunction may
be issued when the evidence shows “that the movant’s
rights are being or will be violated by an adverse party
and the movant will suffer immediate and irreparable
injury, loss, or damage pending a final judgment in the
action, or the acts of the adverse party will tend to
render such final judgment ineffectual.” The Kentucky

App. 7
Court of Appeals has interpreted this to require that
the trial court engage in a three-step process before
issuing an injunction. Maupin v. Stansbury, 575
S.W.2d 695, 699 (Ky. App. 1978).
The first step requires Plaintiff to demonstrate he
has suffered, or is suffering, irreparable injury. This is
a mandatory prerequisite to the issuance of any
injunction. Maupin v. Stansbury, 575 S.W.2d 695, 699
(Ky. App. 1978). Under CR 65.04, irreparable harm
exists only where a party has clearly shown the
likelihood of injury to a concrete personal right.
Maupin at 695. There must be a showing that the
personal right is being immediately impaired, and that
there is an urgent need for relief. McCloud v. City of
Cadiz, 548 S.W.2d 158 (Ky. App. 1977). Here, Jerome
Kunkel argues that he is missing weeks of school, and,
as it is his senior year, it may have lifelong
consequences. He is missing school, and although he is
doing homework and came to school to take a test on a
Saturday, it is affecting his ability to learn the
material. Kunkel also testified he was an important
player on the basketball team, from which he was
selected to participate in an all-star game, and in which
he was unable to play. He also testified he is a member
of the baseball team and has already missed time with
the team. In Washington v. Glucksberg, the Supreme
Court found inter alia that one of an individual’s
fundamental rights is the right to direct the upbringing
and education of one’s children. Id. 521 U.S. 702, 720
(1997), citing Meyer v. Nebraska, 262 U.S. 390 (1923).
The Court finds Kunkel has met his burden in this
prong as the Court finds the harm from being
prevented from attending school is irreparable. The

App. 8
Court’s finding on this issue does not extend however
to Kunkel’s participation extracurricular activities.
The second step evaluates “whether a substantial
question has been presented,” Maupin at p. 699. This
requires a substantial possibility that the Plaintiff will
ultimately prevail in the instant action. Norsworthy v.
Kentucky Board of Medical Licensure, 330 S.W.3d 58
(Ky. 2009). Jerome Kunkel argues that he is likely to
succeed as his constitutional rights under both the
United States Constitution and the Kentucky
Constitution have been violated. He further argues
that the NKIDHD has acted outside their statutory
authority, and that they acted in retaliation for his
exercise of his religious beliefs. NKIDHD disagrees.
They argue that the Non-Attendance Order was
rendered in response to the outbreak of Varicella and
was not in retaliation for Kunkel’s exercise of his
religious freedom not to receive the vaccination, and
further that the Order does not infringe upon Kunkel’s
Constitutional rights. NKIDHD further argues that
Kunkel does not have a Constitutional right to
participate in extracurricular activities.
The Court will first address Kunkel’s argument that
there has been no laboratory diagnosis of Varicella, and
as such the NKIDHD has not taken the necessary
diagnostic confirmation steps required by statute and
administration regulation to be able to take the actions
it has taken at Assumption, up to and including the
school ban. The Court does not find there is a
substantial probability that Kunkel will succeed on this
claim. The Statutes and Administrative Regulations
applicable to the instant matter do not require a

App. 9
laboratory diagnosis. Additionally, one of the effected
students at Assumption sought treatment for
complications at Children’s Hospital and was
diagnosed with Chicken Pox.
The Court will next address Jerome Kunkel’s
retaliation claim that the NKIDHD only issued the ban
on school attendance based on his exercise of his
religious right not to receive the vaccination. After
hearing the testimony at the Hearing, as well as a
review of the timeline of the steps taken and the
meetings/discussions held among members of both the
NKIDHD and the State and correspondence to and
from both Assumption and the Kunkels regarding the
different steps, the Court does not find there is a
substantial probability that Kunkel will succeed on this
claim. Additionally, as agreed to by both parties, the
NKIDHD is not mandating that Jerome receive the
vaccine. K.R.S. 214.036 allows that no child shall be
required to be immunized if the child’s parents, or in
this case the individual, as Jerome is now 18 years old,
are opposed to medical immunization against disease,
and who object by a written sworn statement to the
immunization of such child on religious grounds. Karen
Kunkel signed the Commonwealth of Kentucky Parent
or Guardian’s Declination on Religious Grounds to
Required Immunizations form on behalf of Jerome as
he was not yet 18 years of age when the school year
began. The form notes “In the event that the county
health department or state health department declares
an outbreak of a vaccine-preventable disease for which
proof of immunity for a child cannot be provided, he or
she may not be allowed to attend childcare or school for
up to three (3) weeks, or until the risk period ends.”

App. 10
Jerome Kunkel also argues the ban is not necessary
as allowing the “wild” strain of the virus to progress
through the community is more beneficial as the
immunity achieved by contracting the virus in this
manner provides longer lasting and more powerful
immunity. Both Dr. Bark, who runs the Center for
Disease Prevention in Evanston, Illinois, and whose
practice focuses on pediatrics, and Dr. Marshall, who is
the Chief of Pediatric Infectious Disease at the
University of Louisville, School of Medicine, agree that
Varicella is very contagious and that there is a
prodromal period of approximately two days during
which an individual can spread Varicella before being
aware they have been infected. Dr. Bark testified that
Varicella is not a serious public health threat and that
the current situation at Assumption does not sound
like an outbreak. Additionally, in her experience, the
incidence of Shingles, a disease that normally occurs
later in life in an individual who has had chicken pox
and is caused by the same virus, is increasing in a
younger population because the younger population has
received the vaccine and immunity received from it is
not as potent as that from the “wild” strain. She
testified that in her opinion, the NKIDHD’s actions
including the school ban were not necessary and that
the individuals affected could voluntarily stay away
and that would be sufficient in this case. Dr. Marshall
disagrees, testifying that Varicella is a highly
contagious disease that can have very serious
complications up to and including death. He disagrees
that the vaccine is not appropriate and further that the
attenuated or weaker strain of the virus in the vaccine
will create more severe cases of Shingles. He testified
that the NKIDHD’s actions were appropriate in that

App. 11
certain juveniles cannot take the vaccine for medical
reasons and that exposure to a pregnant mother can
cause great harm to her unborn child. The Court does
not find there is a substantial probability that Kunkel
will succeed on this claim.
Jerome Kunkel also argues the NKIDHD’s school
ban is not narrowly tailored to achieve its goal of
reducing the spread of the Varicella outbreak at
Assumption. The students who are prevented from
attending school, are not prevented from interacting
with each other outside of school and are still going out
into the community and interacting with the general
public. Additionally, he argues that the individuals are
not prevented from church activities, including
Confessions and attending Mass, where they receive
Communion on the tongue, which could also lead to the
spread of the Varicella. He cites to 446.350, which
provides that “Government shall not substantially
burden a person’s freedom of religion. The right to act
or refuse to act in a manner motivated by a sincerely
held religious belief may not be substantially burdened
unless the government proves by clear and convincing
evidence that it has a compelling governmental interest
in infringing the specific act or refusal to act and has
used the least restrictive means to further that
interest. A ‘burden’ shall include indirect burdens such
as withholding benefits, assessing penalties, or an
exclusion from programs or access to facilities.” Kunkel
argues that when a restriction is placed on an
individual’s First Amendment Rights, that restriction
must be narrowly-tailored in proportion to the interest
served, citing Kiser v. Kamdar, 831 F.3d 784 (2016),

App. 12
and that the school ban is not narrowly-tailored to do
so.
NKIDHD argues its actions were appropriate
pursuant to its required duties and obligations under
Kentucky Statutes and Administrative Regulations as
applied to the facts at hand. K.R.S. 214.020 provides in
part that when the Cabinet for Health and Family
Services believes that there is a probability that any
infectious or contagious disease will invade this state,
it shall take such action and adopt and enforce such
rules and regulations as it deems efficient in
preventing the introduction or spread of such infectious
or contagious disease or diseases within this state, and
to accomplish these objects shall establish and strictly
maintain quarantine and isolation at such places as it
deems proper. 902 KAR 2:030 mandates the Cabinet
for Human Resources to implement a statewide
program for the detection, prevention and control of
communicable diseases. This administrative regulation
insures delineation of authority and responsibility for
proper investigation and control of communicable
diseases throughout the Commonwealth. Section 1(2)
Control Procedures provides in part that Local Health
Departments or the Cabinet for Human Resources
shall: (a) Make or cause to be made such investigations
as may be necessary for the purpose of securing data
regarding clinical diagnosis, reservoir, and time, place
and source of infection and contacts. (b) Establish and
maintain quarantine, isolation or other measures as
required by law or by administrative regulations of the
Cabinet for Human Resources relating to
communicable disease control... 902 KAR 2:050
provides in part and mandates in Section 1 that

App. 13
whenever any private or public property has been
implicated as a possible reservoir or possible source of
infection of any communicable disease, the local health
department or the Cabinet for Human Resources shall
take such measures as are necessary to secure
adequate cleaning, disinfection, or other control
procedures necessary to insure cessation of
transmission. Additionally, Section 2 provides that
whenever any person has been implicated as a possible
reservoir or possible source of infection of any
communicable disease, the local health department or
the Cabinet for Human Resources shall employ such
measures as are necessary to secure adequate isolation,
restriction of employment or other control procedures
that may be necessary to insure cessation of
transmission of infection.
NKIDHD argues it took measured steps to control
the outbreak of Varicella at Assumption, a duty
required of it by Statue and Administrative Regulation.
The initial activities’ ban and the subsequent school
ban were the required steps taken. They cite to Phillips
v. City of New York, wherein the United States Court
of Appeals, Second Circuit, addressed the issue of
students that were excluded from school after another
student was diagnosed with chicken pox. The state has
a statutory vaccination requirement and a state
regulation allowing unvaccinated children to be
excluded from public school based on an outbreak of a
vaccine-preventable disease. The students had received
religious exemptions from receiving the vaccine. The
Court held that the statute did not violate substantive
due process rights, did not violate the Free Exercise

App. 14
Clause and the parents failed to meet an equal
protection claim. 775 F.3d 538 (2015).
The Court does not find Kunkel is likely to prevail
on this claim. K.R.S. 214.020 requires the NKIDHD to
take such action and adopt and enforce such rules and
regulations as it deems efficient in preventing the
introduction or spread of the Varicella and to
accomplish this, it is required to establish and strictly
maintain quarantine and isolation at such places as it
deems proper. Additionally, NKIDHD was required to
make or cause to be made such investigations as may
be necessary for the purpose of securing data regarding
clinical diagnosis, reservoir, and time, place and source
of infection and contacts regarding the Varicella
outbreak. The Administrative Regulations also require
that whenever any private or public property has been
implicated as a possible reservoir or possible source of
infection of any communicable disease, NKIDHD shall
take such measures as are necessary to secure
adequate cleaning, disinfection, or other control
procedures necessary to insure cessation of
transmission. Also, whenever any person has been
implicated as a possible reservoir or possible source of
infection of any communicable disease, NKIDHD is
required to employ such measures as are necessary to
secure adequate isolation, restriction of employment or
other control procedures that may be necessary to
insure cessation of transmission of infection.
The third step in the analysis requires the Court to
weigh the equities involved. Maupin at p. 699. Jerome
Kunkel argues that there is no harm implicated if the
Court enters the injunction, basing this argument on

App. 15
the opinions of Dr. Bark that there is no public health
threat in enjoining/prohibiting the NKIDHD’s
extracurricular activities and school ban, as it is
sufficient to have infected students pulled from school
during the pendency of their infection and symptoms.
Furthermore, the extracurricular ban does not
meaningfully advance public health when the
supposedly seriously at-risk students still have
significant public interactions. NKIDHD argues that
granting the injunction will harm the public by placing
individuals at risk of exposure to a serious infectious
disease and, therefore, the injunction will have adverse
consequences to public health. They argue that they
have implemented a narrowly crafted, stepped, and
scientifically-justified set of measures to advance a
compelling government interest—prevention of the
spread of an infectious disease that has serious public
health risks. They further argue that the issuance of an
injunction not only endangers public health, but also
undermines the authority to protect communal health
afforded to the Cabinet for Health and Family Services
and local health departments by Kentucky’s
Legislature. The Court does not find that an injunction
would be equitable.
IT TS HEREBY ORDERED AND ADJUDGED
that Plaintiffs’ Motion for a Temporary Restraining
Order/Preliminary Injunction is DENIED.
DATED this 2nd day of April, 2019.

App. 16
/s/ James R. Schrand
JAMES R. SCHRAND, JUDGE
BOONE COUNTY COURT
CC: ALL ATTORNEYS AND PARTIES OF RECORD

App. 17

APPENDIX B
Commonwealth of Kentucky
Court of Appeals
NO. 2019-CA-000575-I
[Filed June 26, 2019]
___________________________
JEROME KUNKEL, ET AL. )
MOVANTS
)
)
v.
)
)
NORTHERN KENTUCKY )
INDEPENDENT HEALTH )
DISTRICT, ET AL.
)
RESPONDENTS
)
__________________________ )
ON MOTION FOR INTERLOCUTORY RELIEF
FROM THE BOONE CIRCUIT COURT
HONORABLE JAMES R. SCHRAND, JUDGE
CIVIL ACTION NO. 19-CI-00357
ORDER
DENYING MOTION FOR INTERLOCUTORY
RELIEF
** ** ** ** **
BEFORE: ACREE, LAMBERT, AND NICKELL,
JUDGES.

App. 18
This cause comes before the Court on Movants’
motion for interlocutory relief under CR1 65.07 from an
order of the Boone Circuit Court denying their motion
for a temporary injunction. Movants have also moved
the Court for an oral argument. Finally, Respondents
moved the Court to supplement their brief to address
the issue of mootness. Having reviewed the record, and
being otherwise sufficiently advised, IT IS HEREBY
ORDERED that Respondents’ motion to supplement
their brief is GRANTED. IT IS FURTHER ORDERED
that Movants’ motion for interlocutory relief shall be,
and hereby is, DENIED. The motion for oral argument
is DENIED.
I. BACKGROUND
Movant Jerome Kunkel (“Jerome”) is an 18-year old
who, in spring 2019, was a senior at Assumption
Academy, a private, Catholic school in Walton,
Kentucky (“the school”).2 Jerome filed a lawsuit in
March 2019 alleging Respondents violated his right to
freedom of religion, equal protection, and procedural
and substantive due process of law under the United
States and Kentucky Constitutions. The remaining

1

2

Kentucky Rules of Civil Procedure.

The school consists of an upper school, Assumption Academy, and
a lower school, Our Lady of the Sacred Heart Elementary school,
which is across the street from Assumption Academy. The upper
and lower school are collectively referred to herein as “the school,”
but will be distinguished where necessary for clarity.

App. 19
Movants3 are parents of other children attending the
school, which serves grades K-12, who joined in the
lawsuit.
The school has a student body of 240 students.
Eighty-two percent of the students are not vaccinated
against varicella (commonly known as “chickenpox”).
The parents4 of the unvaccinated children each signed
a document titled “Parent or Guardian’s Declination on
Religious Grounds to Required Immunizations” under
which they exercised their right to a religious
exemption from vaccination under KRS5 214.036. The
form provides:
In the event that the county health department
or state health department declares an outbreak
of a vaccine-preventable disease for which proof
of immunity for a child cannot be provided, he or
she may not be allowed to attend childcare or
school for up to three (3) weeks, or until the risk
period ends.
Movants’ Complaint stems from a series of actions
undertaken by the Northern Kentucky Independent
Health District (“Health Department”) beginning on
February 5, 2019. On that date, the Health
3

We refer to Movants collectively herein, but we will distinguish
between Movants, Jerome, and his parents, the Kunkels, when
necessary.
4

Mrs. Kunkel signed a form on Jerome’s behalf before he turned
18. Each of the remaining parents also executed a form on behalf
of their children.
5

Kentucky Revised Statutes.

App. 20
Department required the school to send a letter to
parents and guardians informing them of a suspected
outbreak of varicella among the students. When the
illness continued to spread, the Health Department, on
February 21, 2019, required the school to cancel all
school events until 21 days after the onset of rash for
the last ill student (“the activities ban”).
On February 26, 2019, Jerome and the Kunkels met
with Mr. Zack Raney (“Mr. Raney”), an epidemiologist
with the Health Department. Movants allege that
during the February 26 meeting, Mr. Raney
“confirmed . . . that the activities ban did nothing other
than mete out punishment to a religious group that Mr.
Raney disagreed with.” On cross-examination at the
hearing, Mr. Raney was asked whether the March 7
email threatening suit made him “mad,” to which he
replied, “no.” Movants’ attorney then played a portion
of a recording6 of the February 26 meeting between the
Kunkels and Mr. Raney, specifically, the following
exchange:
Mr. Kunkel:

The best you guys can come
up with is I have the right to
say this kid does not get . . .
one of your virus shots.

Mr. Raney:

That is correct.
[unintelligible]

6

The Kunkels recorded the meeting without Mr. Raney’s
knowledge.

App. 21
Mr. Raney:

That’s within your right.
But, as a result of that
decision, we are here.

Mrs. Kunkel:

So we’re penalized.

Mr. Raney:

Unfortunately – if –

Thereupon, Movants’ counsel stopped the recording.
The remainder of the statement made by Mr. Raney at
the February 26 meeting was not introduced into
evidence at the hearing. After Movants played the
excerpt from the recording, the following colloquy
occurred:
Movants’ Counsel: Okay. So you told him the
exercise of his right not to
be vaccinated is why we’re
here?
Mr. Raney:

Yes, that’s right.

Movants’ Counsel: Okay, and you told them
that they’re being penalized
for exercising that right,
correct?
Mr. Raney:

No.

Movants’ Counsel: Do I need to play it again?
Here. [Movants’ counsel
plays the recording excerpt
a second time].

App. 22
Movants’ Counsel: So in response to Mrs.
Kunkel’s question to you
about whether they were
being penalized you said
“unfortunately,” correct?
Mr. Raney:

Yes, but I’m not sure if that
was the beginning of
another statement.

On March 7, 2019, through counsel, Jerome, a
member of the boys’ basketball and baseball teams,
threatened to file suit against the Health Department
unless the activities ban was lifted. On March 14, 2019,
the Health Department, having received additional
reported cases of varicella at the school since
February 21, required the school to send a third letter
to parents and guardians, stating:
[a]s a result of the continued increase in cases
and to prevent further spread of this illness,
beginning Friday, March 15, 2019, all students,
Grades K-12, without proof of vaccination or
proof of immunity against varicella virus will
not be allowed to attend school until 21 days
after the onset of rash for the last ill student or
staff member.7
Jerome filed suit on March 14, 2019. A Second
Amended Complaint was filed on March 22, 2019, and
an Intervening Complaint was filed on March 25, 2019.
Movants moved the circuit court for a temporary

7

The March 14, 2019 letter is referred to herein as the “school
ban.”

App. 23
injunction pursuant to CR 65.04. The circuit court
conducted a hearing on April 1, 2019. Witnesses at the
hearing included Jerome, Mrs. Kunkel, Mr. Raney, Dr.
Toni Bark (“Dr. Bark”), and Dr. Gary Marshall (“Dr.
Marshall”). On April 2, 2019, the circuit court entered
an order denying the motion for a temporary
injunction. Movants’ motion for relief under CR 65.07
followed. Respondents filed a motion for leave to
supplement their brief on June 13, 2019, asserting the
matter is moot because: 1) all restrictions on the school
expired on May 18, 2019 because there had not been a
new onset of varicella since April 27, 2019; and 2) the
school recessed for summer break as of June 1, 2019.
I. ANALYSIS
As a threshold matter, we must determine whether
Movants’ motion for relief under CR 65.07 is moot, and
if so, whether it falls within an exception to the
mootness doctrine. Movants argue the matter is not
moot because, with the exception of Jerome,8 the
remaining children will return to the school in the fall.
Movants further argue Respondents have not stated
they will not “impose the restriction in the fall when
school resumes if there is another case of reported
varicella,” asserting “[c]ases continue to occur among
the population, whether or not they happen to he
reported to the Health Department [].”
“[A] ‘moot case’ is one which seeks to get a judgment
. . . upon some matter which, when rendered, for any
8

Jerome graduated from Assumption Academy in or about May
2019. He also ultimately contracted varicella during the pendency
of this action.

App. 24
reason, cannot have any practical legal effect upon a
then existing controversy.” Morgan v. Getter, 441
S.W.3d 94, 98-99 (Ky. 2014) (citation omitted)
(emphasis original). Our jurisprudence recognizes
certain exceptions to the mootness doctrine, such as
where a matter is capable of repetition, yet evading
review.
The exception for cases “capable of repetition,
yet evading review,” has two elements: (1) the
challenged action must be too short in duration
to be fully litigated prior to its cessation or
expiration, and (2) there must be a reasonable
expectation that the same complaining party
will be subjected to the same action again.
Id. at 100.
In this case, the parents and next friends of 25
minor students also attending the school joined in the
action filed by Jerome. The Intervening Complaint filed
by Seante Carter, as Next Friend and Guardian of AC,
EC, MC, OC, NC, SC, and RC, like the Complaint filed
by Jerome, alleges Ms. Carter’s children are not
vaccinated for varicella due to religious beliefs and
were not permitted to attend school; and that “but for
the Health Department and Raney’s directive, Father
Muscha would have permitted Mr. Kunkel, and for that
matter the other students, to participate in sports and
other extracurricular activities.”
The Second Amended Complaint alleges Christina
Bell’s five children are in ninth grade or lower at the
school; that Maria Kunkel’s seven children are in
eighth grade or lower at the school; and that David

App. 25
Kunkel’s six children are in tenth grade or lower at the
school. The Second Amended Complaint alleges: “None
of the children of [these] Plaintiffs have received the
Varicella Vaccine, and all of them refuse, under
grounds of religion to do so.”
The parties agree the vaccination rate for varicella
at the school is 18%. Experts for both Movants and
Respondents have testified and agreed varicella is
highly contagious. Although the request for injunctive
relief is moot as to Jerome, we conclude it may not be
moot as to some or all of the remaining 25 students and
that even if moot, the question is capable of repetition
yet evading review. Therefore, this exception to the
mootness doctrine applies, and we turn to the merits of
the motion for CR 65.07 relief.
Under CR 65.07, this Court may grant a party
interlocutory relief where the circuit court has denied
a motion for a temporary injunction. The circuit court
reviews applications for temporary injunctive relief
under CR 65.04 on three levels.
First, the trial court should determine whether
plaintiff has complied with CR 65.04 by showing
irreparable injury. This is a mandatory
prerequisite to the issuance of any injunction.
Secondly, the trial court should weigh the
various equities involved. Although not an
exclusive list, the court should consider such
things as possible detriment to the public
interest, harm to the defendant, and whether
the injunction will merely preserve the status
quo. Finally, the complaint should be evaluated
to see whether a substantial question has been

App. 26
presented. If the party requesting relief has
shown a probability of irreparable injury,
presented a substantial question as to the
merits, and the equities are in favor of issuance,
the temporary injunction should be awarded.
However, the actual overall merits of the case
are not to be addressed in CR 65.04 motions.
Maupin v. Stansbury, 575 S.W.2d 695, 699 (Ky. App.
1978).
The Supreme Court of Kentucky has explained:
[b]ecause the granting or denial of a temporary
injunction under CR 65.04 is addressed to the
sound judicial discretion of the trial judge[,] a
party seeking interlocutory relief from a trial
court’s decision to grant or deny a temporary
injunction bears an enormous burden . . . . And
an appellate court may not disturb a trial court’s
decision on a temporary injunction unless the
trial court’s decision is a clear abuse of
discretion. The test for abuse of discretion is
whether the trial judge’s decision was arbitrary,
unreasonable, unfair, or unsupported by sound
legal principles.
Com. ex rel. Conway v. Thompson, 300 S.W.3d 152, 162
(Ky. 2009), as corrected (Jan. 4, 2010) ( citations and
quotation marks omitted). With these principles in
mind, we turn to the instant case.
A. Irreparable Harm
A movant must show irreparable harm to obtain
injunctive relief. Maupin, 575 S.W.2d at 698. “In

App. 27
addition to showing that personal rights are at stake,
CR 65.04 further requires a clear showing that these
rights will be immediately impaired.” Id.
The circuit court determined Movants had shown
irreparable harm with respect to the school ban but not
with respect to the activities ban. We can discern no
abuse of discretion in the circuit court’s findings.
Movants do not have a right to participate in school
athletics under Kentucky law. See Thompson v. Fayette
Cty. Pub. Sch., 786 S.W.2d 879, 882 (Ky. App. 1990)
(holding where student was released from school
wrestling team for failure to maintain 2.0 grade point
average, “[t]he authorities do not support [the
student’s] claim of a property or liberty interest
infringement”); Lowery v. Euverard, 497 F.3d 584, 588
(6th Cir. 2007) (“It is well-established that students do
not have a general constitutional right to participate in
extracurricular athletics”). Although Movants have a
right to direct the education and upbringing of their
children, Washington v. Glucksberg, 521 U.S. 702, 720,
117 S.Ct. 2258, 2267, 138 L.Ed. 2d 772 (1997) (citation
omitted), “[t]he fundamental right of parents to control
the education of their children does not extend to a
right to demand that their children be allowed to
participate without restrictions in extracurricular
sports in the educational setting that the parents have
freely chosen.” Seger v. Kentucky High Sch. Athletic
Ass’n, 453 F. App’x 630, 634 (6th Cir. 2011).
On the other hand, “[w]e recognize that education is
a fundamental right in Kentucky.” Rose v. Council for
Better Educ., Inc., 790 S.W.2d 186, 206 (Ky. 1989). In
S.B. ex rel. Brown v. Ballard County Board of

App. 28
Education, 780 F.Supp.2d 560, 569 (W.D. Ky. 2011),
the Court held a student placed in alternative school
due to a narcotics violation would not suffer irreparable
harm in the absence of injunctive relief because the
alternative school “provides her with sufficient
resources to complete her regularly assigned class work
and receive additional aid should she require it.”
Contrarily, “total exclusion from the educational
process for more than a trivial period . . . is a serious
event in the life of the[] child.” Goss v. Lopez, 419 U.S.
565, 576, 95 S.Ct. 729, 737, 42 L.Ed.2d 725 (1975). In
this case, Movants were excluded from the educational
process, with the exception of collecting their
homework and taking tests, for a lengthy period of
time. The circuit court did not abuse its discretion in
finding Movants have demonstrated irreparable harm.
B. Substantial question on the merits
1. Introduction
The circuit court is not to decide the merits of the
case in ruling on a motion for a temporary injunction.
Oscar Ewing, Inc. v. Melton, 309 S.W.2d 760, 762 (Ky.
1958). Rather, the complaint should be evaluated to
determine whether a substantial question has been
presented. Maupin, 575 S.W.2d at 699. “To support a
temporary injunction, one must show that a
substantial question exists that tends to create a
‘substantial possibility’ that the [movant] will
ultimately prevail on the merits.” Norsworthy v.
Kentucky Bd. of Med. Licensure, 330 S.W.3d 58, 63 (Ky.
2009) (emphasis original).

App. 29
Movants argue the burden of showing a substantial
question was “shifted” to Respondents under KRS
446.350 “once sincerely held religious beliefs were at
issue.” However, Maupin makes clear the movant bears
the burden of showing he is entitled to the
“extraordinary remedy” of a temporary injunction. See
Maupin, 575 S.W.2d at 698-99 (“If the party requesting
relief has shown . . .”) ( emphasis added).
2. Freedom of religion
a. Kentucky Constitution
Under the Kentucky Constitution “[a]ll men are, by
nature, free and equal, and have certain inherent and
inalienable rights, among which may be reckoned . . .
[t]he right of worshipping Almighty God according to
the dictates of their consciences.” Kentucky
Constitution, §1.
KRS 446.350 provides:
[g]overnment shall not substantially burden a
person’s freedom of religion. The right to act or
refuse to act in a manner motivated by a
sincerely held religious belief may not be
substantially burdened unless the government
proves by clear and convincing evidence that it
has a compelling governmental interest in
infringing the specific act or refusal to act and
has used the least restrictive means to further
that interest. A “burden” shall include indirect
burdens such as withholding benefits, assessing
penalties, or an exclusion from programs or
access to facilities.

App. 30
KRS 446.350 applies a strict scrutiny standard of
review to a claim the government has substantially
burdened a sincerely held religious belief under the
Kentucky Constitution.
i. Sincerely held religious belief
Movants are Catholic and object to the varicella
vaccine because it “is derived from aborted fetal cells.”
At the hearing, Jerome and Mrs. Kunkel testified as to
their religious beliefs, and Movants produced a letter
from the Vatican dated June 9, 2005, addressing the
issue. The parties ultimately stipulated that Movants
chose not to vaccinate the children against varicella
because of their sincerely held religious beliefs.
ii. Substantial burden
KRS 446.350 applies only where the state
government “substantially burdens” a person’s freedom
of religion. Under Kentucky law, “[e]xcept as provided
in KRS 214.036, no child shall be eligible to enroll as a
student in any public or private elementary or
secondary school without first presenting a certificate
[of immunization] from a medical physician,
osteopathic physician, or advanced practice registered
nurse licensed in any state.” KRS 158.035. KRS
214.036, in turn, gives parents the option to claim
exemption from vaccination on religious grounds.
In the instant case, the religious belief is that the
varicella vaccine is morally objectionable. The religious
act or “refus[al] to act” is the failure to vaccinate the
children. There is no evidence Respondents required or
purported to require Movants to vaccinate the

App. 31
children.9 Even assuming arguendo Respondents
substantially burdened Movants’ religious belief,
Movants have not shown a substantial possibility they
will prevail on their freedom of religion claim under the
remaining elements of KRS 446.350.
iii.

Compelling interest

Movants assert: 1) the infection at issue was not
shown to be varicella, and the Health Department
could not act without a laboratory confirmation;
2) there was no “outbreak;” and 3) varicella is a mild
“infection”10 and not a public health threat. Movants
conclude the Health Department lacked a compelling
interest and was without authority to act. We address
each of these arguments in turn.
a. Was the illness varicella, and was a laboratory
confirmation necessary?
The Cabinet for Health and Family Services
promulgates the controlling regulations. KRS 214.020.
The regulations do not require laboratory confirmation
of a disease or infection before the Health Department
may act to contain it.

9

The Kunkels assert Mr. Raney stated, at the February 26
meeting, the Vatican permits or allows Catholics to receive the
varicella vaccine. Mr. Raney testified he did not recall making that
statement. But at no point has it been alleged that any officials
ordered or directed Movants to vaccinate the children.
10

The experts disagreed as to whether varicella is an “infection” or
a “disease.” We find this point to be irrelevant to our analysis.

App. 32
902 KAR11 2:050 states:
Section 1. Property. Whenever any private or
public property has been implicated as a possible
reservoir or possible source of infection of any
communicable disease, the local health
department or the Cabinet for Human Resources
shall take such measures as are necessary to
secure adequate cleaning, disinfection, or other
control procedures necessary to insure cessation
of transmission.
Section 2. Persons. Whenever any person has
been implicated as a possible reservoir or
possible source of infection of any communicable
disease, the local health department or the
Cabinet for Human Resources shall employ such
measures as are necessary to secure adequate
isolation, restriction of employment or other
control procedures that may be necessary to
insure cessation of transmission of infection.
(Emphasis added).
902 KAR. 2:030, Section 1(2) further provides:
Control procedures. Local health departments or
the Cabinet for Human Resources shall:
(a) Make or cause to be made such investigations
as may be necessary for the purpose of securing
data regarding clinical diagnosis, reservoir, and
time, place and source of infection and contacts.

11

Kentucky Administrative Regulations.

App. 33
(b) Establish and maintain quarantine, isolation
or other measures as required by law or by
administrative regulations of the Cabinet for
Human Resources relating to communicable
disease control.
(c) Provide, or cause to be provided, for the
instruction of persons affected and their
attendants in the proper methods of such
concurrent and terminal disinfection as may be
required by the Cabinet for Human Resources or
local board of health having jurisdiction.
(d) Afford all contacts of persons suffering from
those diseases for which there is a reliable and
approved means of immunization the
opportunity to be immunized.
(e) Make inquiry or investigation to see that
control measures are being properly observed
during the period of communicability.
(f) Introduce such other measures, not
inconsistent with law or the administrative
regulations of the Cabinet for Human Resources
and the local board of health having jurisdiction,
as are necessary because of widespread infection
or threatened epidemic.
(Emphasis added). Finally, 902 KAR 2:030, Section 1(2)
provides:
Uncertain diagnosis. Whenever a case of
unrecognized illness shall be reported to, or
otherwise brought to the attention of the local
health department or Cabinet for Human

App. 34
Resources which upon investigation presents
symptoms of a communicable disease but in
which sufficient time has not elapsed to render
a positive diagnosis, the local health department
or the Cabinet for Human Resources may
establish the control measures applicable in
actual cases of the suspected communicable
disease, until such time as a positive diagnosis
can be established. If the disease proves to be
noncommunicable the temporary control
measures shall be terminated at once.
(Emphasis added).
The Health Department clearly had the regulatory
authority to act without a laboratory confirmation the
disease or infection at issue was varicella. In addition,
Movants have not shown a substantial possibility they
will prevail on their claim the disease was not varicella,
but rather, a noncommunicable illness.12
In an email dated March 8, 2019, the school’s
registrar, Vanessa Dredger (“Ms. Dredger”), stated
“[a]ll parents involved assert that it is chickenpox when
I talk to them, but none took their children to the
doctor.” Therefore, the parents of the children selfreported the illness as “chickenpox.”
On February 19, 2019, one of the students
presented at Cincinnati Children’s Hospital for
treatment. That child was diagnosed with varicella by
a physician, although no laboratory test was
performed. The child also suffered from complications
12

Movants suggested the “ rash” could be poison ivy.

App. 35
of varicella–a superinfection, pain in the joints, and
resultant difficulty moving. The child received
intravenous antibiotics.
Movants attempted to counter the evidence of a
clinical or positive diagnosis by having several
witnesses testify the doctor at Cincinnati Children’s
Hospital refused to give the child a note excusing his
school absence due to chickenpox. However, Dr.
Marshall testified he reviewed the child’s medical
records, which confirm he was diagnosed with
varicella.13 Dr. Marshall further testified a laboratory
test is unnecessary for a trained physician to make a
clinical diagnosis because varicella is typical in the way
it presents. On cross-examination, Dr. Bark agreed
physicians are competent to make a clinical diagnosis
of varicella without laboratory confirmation.
There is also evidence Movants simply did not take
the children to a doctor for diagnoses or testing. At the
hearing, Movants relied on a chart prepared by Ms.
Dredger which indicates only one child was seen by a
doctor. Movants cannot decline to take the children to
a doctor for diagnoses and/or laboratory tests, then be
heard to complain the government acted without
having “laboratory confirmation.” Regardless,
laboratory confirmation is not required under the
regulations.

13

Mr. Raney also testified Cincinnati Children’s Hospital “faxed
over” a patient sheet with a doctor’s notes that “explained
chickenpox was suspected” and the “current diagnosis was a
secondary infection due to the chickenpox.”

App. 36
b. Was there an outbreak?
The trial court did not abuse its discretion in finding
there was an “outbreak” requiring the Health
Department to act. 902 KAR 2:020(10)(a) defines an
“outbreak” as “[t]wo (2) or more cases . . . that are
epidemiologically linked or connected by person, place,
or time.” The plain language of the regulation is met
here. The regulation does not require a laboratory
confirmation before an outbreak may be declared. See,
e.g., Revenue Cabinet v. O’Daniel, 153 S.W.3d 815, 819
(Ky. 2005) (“[t]he plain meaning of the statutory
language is presumed to be what the legislature
intended, and if the meaning is plain, then the court
cannot base its interpretation on any other method or
source”) (citation omitted).
c. Is varicella a public health threat?
The experts, Dr. Bark for Movants and Dr. Marshall
for Respondents, both confirmed a varicella vaccine
was developed in 1995. Before the vaccination was
developed, approximately 4 million people contracted
varicella in the United States each year; around 11,000
of them were hospitalized annually; and approximately
100 people died each year.
Both experts agree varicella is highly contagious.14
Ninety percent of a nonimmune population will
contract varicella if exposed to an infected person. Both
experts testified varicella is spread through the air. Dr.
Bark and Dr. Marshall also agree a person may be

14

Dr. Marshall testified varicella “spreads very rapidly through
populations.”

App. 37
infected with varicella and be contagious for up to two
days before the onset of the rash.
The experts each confirmed herpes zoster, or
shingles, is a serious complication of varicella, which
occurs in about one-third of adults who have had
varicella. The pregnant, elderly, infants, and the
immunocompromised suffer a higher rate of
complications.
Dr. Marshall testified varicella is a type of herpes
virus. Although Dr. Marshall stated he agreed with
CDC15 literature describing varicella as “mild,” he also
testified there is a threat to public health if varicella is
not contained. He described the symptoms of varicella
as follows:
[t]he lesions are initially little red bumps. They
evolve into vesicles, which is a little clear blister,
it’s described as a dewdrop on a rose petal. The
average healthy person who gets chickenpox
gets 200-500 of these lesions. They also have
fever, they have malaise. Then the lesions turn
into pustules, which are little blisters filled with
puss. Those eventually crust, and they fall off.
And once the last lesion crusts and falls off,
they’re -- the patient is no longer contagious.
Dr. Marshall cited the complication rate as 5-10%.
In describing the possible complications, he stated:
[m]ost of the complications are secondary
bacterial infections. Those can be anything from

15

United States Centers for Disease Control and Prevention.

App. 38
an ear infection, to pneumonia, to severe
invasive streptococcal syndrome, which I’ve
personally taken care of in the hospital and I’ve
lost patients to that. That’s where the Group A
strep, the bacteria that normally causes sore
throat, actually gains entry into the skin lesions
and then into the blood stream and causes shock
and often death. That’s one of the most serious
complications. Besides secondary bacterial
infections, you can actually have complications
from the virus itself. So the virus can get into
your brain, and cause encephalitis, which is
brain infection. It can get into the lungs and
cause pneumonia . . . 10% of women who get
chickenpox while they’re pregnant wind up in
the hospital in the intensive care unit from
varicella pneumonia.
Dr. Bark conceded the school population is at a
greater risk of infection because varicella is highly
contagious, and 82% of the students are unvaccinated.
Dr. Bark further testified varicella is a mild infection.
She testified it is preferable if children contract the
“wild” strain rather than being vaccinated. She opined
varicella is not a serious public health threat.
Courts have traditionally recognized the
government’s compelling interest in public health, even
in light of competing religious beliefs. In Mosier v.
Barren Cty. Bd. of Health, 308 Ky. 829, 215 S.W.2d 967
(1948), the plaintiffs sought to enjoin a government
resolution requiring all schoolchildren to be vaccinated
against smallpox, or else be excluded from school. The
plaintiffs argued vaccination was against their

App. 39
religious beliefs. The trial court denied the motion for
an injunction. Kentucky’s highest court affirmed,
holding:
[a]s pointed out in United States v. Ballard,
322.U.S. 78, 64 S.Ct. 882, 886, 88 L.Ed. 1148,
religious freedom embraces two conceptions,
‘Freedom to believe and freedom to act. The first
is absolute but, in the nature of things, the
second cannot be.’ The Ballard opinion quoted
from Cantwell v. Connecticut, 310 U.S. 296, 60
S.Ct. 900, 84 L.Ed. 1213, 128 A.LR. 1352, where
it was written that one may have any religious
belief desired, but one’s conduct remains subject
to regulation for the protection of society. A
learned and exhaustive opinion was written by
Judge Tilford while a member of this Court,
Lawson v. Commonwealth 291 Ky. 437, 164
S.W.2d 972, wherein he pointed out that the
constitutional guarantee of religious freedom
does not permit the practice of religious rites
dangerous or detrimental to the lives, safety or
health of the participants or to the public.
Id. at 969. See also Hodel v. Virginia Surface Min. &
Reclamation Ass’n, Inc., 452 U.S. 264, 300, 101 S.Ct.
2352, 2373, 69 L.Ed. 2d 1 (1981) (“Protection of the
health and safety of the public is a paramount
governmental interest which justifies summary
administrative action”); Jacobson v. Commonwealth of
Massachusetts, 197 U.S. 11, 25, 25 S.Ct. 358, 361, 49
L.Ed. 643 (1905) (“According to settled principles, the
police power of a state must be held to embrace, at
least, such reasonable regulations established directly

App. 40
by legislative enactment as will protect the public
health and the public safety”).
Although there was conflicting testimony presented
at the hearing as to whether varicella is a public health
risk, we cannot say the circuit court’s findings were
“arbitrary, unreasonable, unfair, or unsupported by
sound legal principles.” Com. ex rel. Conway, 300
S.W.3d at 162. See also Moore v. Asente, 110 S.W.3d
336, 354 (Ky. 2003) (“[J]udging the credibility of
witnesses and weighing evidence are tasks within the
exclusive province of the trial court”). The
Commonwealth has a compelling interest in taking
limited and temporary steps to control an outbreak of
a vaccine-preventable disease, even in the absence of a
serologically confirmed case.
iv.

Least restrictive means

The Health Department first took action with
respect to the school on February 5, 2019. In a letter
sent to all parents and guardians, the Health
Department stated the school was “currently
experiencing an outbreak of an illness that is
accompanied by a blister-like rash suspected to be
chickenpox.” At that time, the school had reported six
suspected varicella cases to the Health Department.
The February 5, 2019, letter described the symptoms of
chickenpox; advised parents to monitor their children;
and advised them to contact their doctor if chickenpox
was suspected. The letter further advised the parents
to “ensure all members of your household are up-todate on all vaccinations,” but it did not require or
purport to require vaccination.

App. 41
By February 21, eighteen cases of the illness had
been reported to the Health Department by the school.
The Health Department had received one student’s
medical records from Cincinnati Children’s Hospital
showing that he was diagnosed with complications of
chickenpox. Mr. Raney testified the Health Department
found the increase from six to eighteen cases
concerning because it represented a threefold increase
in two weeks. On February 21, 2019, the Health
Department required the school to send a follow-up
letter to parents and guardians cancelling school
events until 21 days after the onset of rash for the last
ill student. The letter again advised parents to monitor
their children; described the symptoms of varicella; and
recommended, but did not order, vaccination.
On or about February 22, 2019, Father Muscha
telephoned the Health Department to inquire whether
the boys’ basketball team could participate in the state
tournament. Mr. Raney initially informed Father
Muscha the team could not participate. Mr. Raney
testified the Health Department was concerned about
the spread of varicella to pupils of other schools. The
basketball team played against schools from other
regions, including Hopkinsville, Kentucky; Somerset,
Kentucky; Ohio; and Indiana.
After consultation with his superior at the Health
Department, Mr. Raney informed Father Muscha the
players on the basketball team could participate in the
tournament if they passed a varicella titer test. The
titer test indicates whether a person is immune to
varicella, either due to having had varicella previously
or having been vaccinated. On February 23, 2019, the

App. 42
Health Department advised Father Muscha two of the
basketball team’s ten players (Jerome and AC) did not
show immunity to the virus and could not play, but the
other eight players could participate.
By March 14, 2019, 32 cases of the illness had been
reported by the school. By this point, 13% of the total
student body had been reported as having the illness.
Following telephone consultation with the Kentucky
Department of Public Health, the Health Department
required the school to send the third letter, imposing
the school ban, to parents and guardians.
In Burwell v. Hobby Lobby Stores, Inc., 573 U.S.
682, 134 S.Ct. 2751, 189 L.Ed.2d 675 (2014), the United
States Supreme Court considered whether the HHS16
could require three closely-held corporations to provide
health insurance coverage for four methods of
contraception “that violate the sincerely held religious
beliefs of the companies’ owners.” Id., 573 U.S. at
689–90, 134 S.Ct. at 2759. Applying the federal statute
that mirrors KRS 446.350, the Court determined the
HHS mandate “plainly fails” the least restrictive means
test. Id., 573 U.S. at 692, 134 S.Ct. at 2759. The Court
held:
HHS has not shown that it lacks other means of
achieving its desired goal without imposing a
substantial burden on the exercise of religion by
the objecting parties in these cases. . . . The most
straightforward way of doing this would be for
the Government to assume the cost of providing

16

United States Department of Health and Human Services.

App. 43
the four contraceptives at issue to any women
who are unable to obtain them under their
health-insurance policies due to their employers’
religious objections. This would certainly be less
restrictive of the plaintiffs’ religious liberty, and
HHS has not shown . . . that this is not a viable
alternative.
Id., 573 U.S. at 728, 134 S.Ct. at 2780. The Court also
noted a second less restrictive means would be to
establish an accommodation applying to for-profit
organizations with religious objections to the mandate,
as an exemption for non-profit organizations with
religious objections already exists. Id., 573 U.S. at 73031, 134 S.Ct. at 2782.
In the case sub judice, the circuit court found
Movants had not shown a substantial likelihood of
success on the merits as to the elements of KRS
446.350. We cannot discern an abuse of discretion. The
Health Department initiated less restrictive means
before implementing the school ban. It increased its
level of regulation and response as the outbreak
continued to grow: first, it issued an advisory letter;
second, it implemented the activities ban; third, it
initiated the school ban. Dr. Marshall opined the
Health Department’s response was reasonable,
measured, and “incremental.”
Movants argue the Health Department could have
imposed a less restrictive alternative such as only
banning symptomatic children from school, but Dr.
Marshall testified just banning those children would
not stop the outbreak because varicella may be
transmitted before the sufferer is symptomatic. Dr.

App. 44
Bark conceded a person may transmit the infection
prior to developing the rash, although she maintained
the sufferer would have fever and malaise during that
time.
Movants further assert the Health Department
could have banned only populations at risk for
complications from school premises (i.e., pregnant
women, infants, the elderly, and the
immunocompromised). Dr. Marshall testified varicella
itself is a public health risk, while Dr. Bark disagreed.
At least one child at the school had already suffered
complications. We must defer to the circuit court’s
weighing of the testimony and expert opinions at this
juncture, and we do not discern an abuse of discretion.
See, e.g., Gingerich v. Commonwealth, 382 S.W.3d 835,
850 (Ky. 2012) (Scott, J., dissenting) (internal quotation
omitted) (emphasis added) (“[T]o be a ‘less restrictive
alternative,’ [the alternative] must be both less
restrictive in the sense that it inhibits [the free exercise
of religion] to a lesser degree and it must be a viable
alternative in that it allows the Government to achieve
the ends that are its compelling interest.”).
Finally, Movants argue the school ban was an
ineffective means to prevent the spread of the illness
because the students could and did regularly interact
outside of school, including attending daily mass at the
church, which shares a ventilation system with
Assumption Academy; having coffee and donuts
together after mass on Sundays; and receiving
communion on the tongue at mass. Movants assert an
employee of the Health Department conceded at the

App. 45
February 26 meeting that a school ban would be
pointless.
If anything, this argument supports a conclusion
the Health Department could have done more, not less,
to prevent the spread of the outbreak. 902 KAR 2:050.
Nonetheless, Dr. Marshall opined the restrictions
imposed by the Health Department were effective
because, at the time of the hearing on April 1, 2019,
only two new cases had been reported since the school
ban, i.e., in the period between March 15, 2019, and
April 1, 2019. We further note the Cabinet for Health
and Family Services could have implemented an
emergency regulation requiring vaccination of all
persons within the epidemic area, notwithstanding the
religious exemption in KRS 214.036. We cannot
determine an abuse of discretion under the facts and
circumstances of this case.
b. United States Constitution
The First Amendment to the Constitution of the
United States provides “Congress shall make no law
respecting an establishment of religion, or prohibiting
the free exercise thereof.” The First Amendment is
made applicable to the States by the Fourteenth
Amendment. Cantwell v. State of Connecticut, 310 U.S.
296, 303, 60 S.Ct. 900, 903, 84 L.Ed. 1213 (1940). In
addition to their claim under the Kentucky
Constitution, Movants brought claims under 42 U.S.C.
§ 1983, which provides a civil action for deprivation of
federal Constitutional rights.
Movants rely on Church of the Lukumi Babalu Aye
v. City of Hialeah, 508 U.S. 520, 113 S.Ct. 2217, 2226,

App. 46
124 L.Ed. 2d 472 (1993). There, church congregants
practiced Santeria. “The basis of the Santeria religion
is the nurture of a personal relationship with orishas,
and one of the principal forms of devotion is an animal
sacrifice.” Id., 508 U.S. at 524, 1135 S.Ct. at 2222. The
city of Hialeah, Florida, enacted ordinances prohibiting
religious animal sacrifice. The Eleventh Circuit upheld
the regulations as constitutional, and the United States
Supreme Court reversed. Movants assert Hialeah
prohibits the “targeting of religious views,” and “[h]ere
. . . there were not orders of general applicability to the
entire community—the orders were addressed to
Assumption, a private Catholic church and school.”
The Hialeah Court, noting the ordinances at issue
used the words “ritual” and “sacrifice” and prohibited
“few if any killings of animals . . . other than the
Santeria sacrifice,” id. 508 U.S. at 536, 1135 S.Ct. at
2228, concluded the ordinances “ha[ve] every
appearance of a prohibition that society is prepared to
impose upon [Santeria worshippers] but not upon
itself.” Id., 508 U.S. at 545, 1135 S.Ct. at 2233 ( citation
omitted). In contrast, KRS 158.035, requiring
immunization of schoolchildren, applies to both public
and private school students.
In Miller v. Davis, 123 F.Supp.3d 924 (E.D. Ky.
2015), Davis, a state circuit court clerk, refused to issue
marriage licenses to same-sex couples. A state statute
required an authorization statement of the county clerk
to appear on each marriage license, bearing “the
signature of the county clerk or deputy clerk issuing
the license.” Id. at 932. Following the United States
Supreme Court’s decision in Obergefell v. Hodges, 135

App. 47
S.Ct. 2584, 192 L.Ed. 2d 609 (2015), the Governor of
Kentucky issued a directive to county clerks requiring
them to issue marriage licenses to same-sex couples.
Miller, 123 F.Supp.3d at 932. Davis argued the
Governor’s directive substantially burdened her right
to free exercise of religion under the First Amendment.
Id. at 939.
The Court applied rational basis review to the state
action under the First Amendment because the
Governor’s directive was neutral and generally
applicable. Id. at 940. “Under rational basis review,
laws will be upheld if they are rationally related to
furthering a legitimate state interest.” Miller, 123
F.Supp.3d at 938 (citations omitted). “A law or
regulation subject to rational basis review is accorded
a strong presumption of validity.” Id. (internal
quotation omitted).
In this case, because the state action survives a
strict scrutiny analysis, we need not consider whether
the action would also satisfy the more deferential
rational basis test.
3. Retaliation for protected speech
It is undisputed Jerome’s lawyer sent an email to
the Health Department on March 7, 2019, threatening
to file suit unless the activities ban was lifted. On
March 14, 2019, the school ban was implemented, the
same day the lawsuit was filed. The remaining
plaintiffs, as next friends and guardians of their
children, joined in Jerome’s lawsuit.
Citizens have the constitutional right “to petition
the Government for a redress of grievances.” United

App. 48
States Constitution, First Amendment. See also
Kentucky Constitution, § 1. This Court has explained:
[i]n order to state a retaliation claim under the
First Amendment a plaintiff must show that:
1) [she] engaged in constitutionally protected
speech; 2) [she] was subjected to adverse action
or was deprived of some benefit; and 3) the
protected speech was a ‘substantial’ or a
‘motivating factor’ in the adverse action.”
Mendez v. Univ. of Kentucky Bd. of Trustees, 357
S.W.3d 534, 546 (Ky. App. 2011) ( citation omitted).
In Thaddeus-X v. Blatter, 175 F.3d 378 (6th Cir.
1999), two inmates appealed a grant of summary
judgment against them on their claims of retaliation by
prison officials “for their efforts to litigate a civil rights
claim on plaintiff’[s] . . . behalf.” Id. at 383. The Sixth
Circuit vacated in part, explaining:
[o]nce the plaintiff has met his burden of
establishing that his protected conduct was a
motivating factor behind any harm, the burden
of production shifts to the defendant. Mount
Healthy City Sch. Dist. Bd. of Educ. v. Doyle, 429
U.S. 274, 97 S.Ct. 568, 50 L.Ed.2d 471 (1977). If
the defendant can show that he would have
taken the same action in the absence of the
protected activity, he is entitled to prevail on
summary judgment.
Id. at 399.

App. 49
“Unlike in the McDonnell Douglas17 burden-shifting
framework, the burden does not shift back to a plaintiff
to show pretext in First Amendment retaliation
claims.” Dye v. Office of the Racing Commission, 702
F.3d 286, 295 (6th Cir. 2012). A summary denial of the
plaintiff’s allegations is insufficient to support
summary judgment in favor of the defendant.
Thaddeus-X, 175 F.3d at 399. On the other hand, “[i]t
is obvious, of course, that bare allegations of malice
would not suffice to establish a constitutional claim.”
Id. (internal citations omitted).
In Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Commission, ___ U.S. ___, 138 S.Ct. 1719, 201
L.Ed. 2d 35 (2018), a Christian baker refused to create
a cake in celebration of the wedding of a same-sex
couple because of his religious opposition to same-sex
marriage. Id., 138 S.Ct. at 1723. The couple filed a
complaint with the Colorado Civil Rights Commission.
The Commission determined the baker violated the
Colorado Anti-Discrimination Act (“Act”), and the
Colorado Court of Appeals affirmed. The United States
Supreme Court reversed the decision of the Colorado
Court of Appeals, holding the Commission’s “actions
here violated the Free Exercise Clause.” Id., 138 S.Ct.
at 1724.
Although Masterpiece did not involve a claim of
First Amendment retaliation, the Court’s discussion as

17

McDonnell Douglas Corp. v. Green, 411 U.S. 792, 794, 93 S.Ct.
1817, 1820, 36 L.Ed. 2d 668 (1973 ), holding modified by Hazen
Paper Co. v. Biggins, 507 U.S. 604, 113 S.Ct. 1701, 123 L.Ed. 2d
338 (1993).

App. 50
to the statements made by the Commission in initially
finding a violation of the Act is instructive. The Court
noted the record reflected “elements of a clear and
impermissible hostility toward the sincere religious
beliefs that motivated [the baker’s] objection.” Id., 138
S.Ct. at 1729. At one public hearing, several of the
seven commissioners “endorsed the view that religious
beliefs cannot legitimately be carried into the public
sphere or commercial domain. . . .” Id. Two months
later, at a second public meeting, another
commissioner stated:
I would also like to reiterate what we said in the
hearing or the last meeting. Freedom of religion
and religion has been used to justify all kinds of
discrimination throughout history, whether it be
slavery, whether it be the holocaust, whether it
be—I mean, we—we can list hundreds of
situations where freedom of religion has been
used to justify discrimination. And to me it is
one of the most despicable pieces of rhetoric that
people can use to—to use their religion to hurt
others.
Id., 138 S.Ct. at 1729. The Court concluded: “[t]his
sentiment is inappropriate for a Commission charged
with the solemn responsibility of fair and neutral
enforcement of Colorado’s antidiscrimination law—a
law that protects against discrimination on the basis of
religion as well as sexual orientation.” Id.
Movants rely on Mr. Raney’s use of the word
“unfortunately” at the February 26 meeting as evidence
of animus. The Oxford Living Dictionaries define
“unfortunately” as “unluckily, sadly, regrettably,

App. 51
unhappily, woefully, lamentably, alas, sad to say, sad
to relate.”18 We are unable to conclude that
“unfortunately” necessarily connotes an admission of
animus or an affirmative response as to whether
Movants were “penalized,” particularly when
considered as a single word of an unfinished sentence.
In a February 20 email between Mr. Raney and
Julie Miracle,19 before the activities ban and the school
ban were implemented and before a lawsuit was
threatened, Ms. Miracle stated:
[h]ere is the guidance on [CDC] exclusion:
Children who lack evidence of immunity and
whose parents refuse vaccination should be
excluded from school from the start of the
outbreak through 21 days after rash onset of the
last identified case.20

18

https://en.oxforddictionaries.com/definition/unfortunately. Last
accessed 5/9/19. This Court may take judicial notice of the
dictionary definition of “unfortunately.” Stokes v. Commonwealth,
275 S.W.3d 185, 188 (Ky. 2008).
19

Ms. Miracle is a registered nurse who works for the Cabinet for
Health and Family Services.
20

At the hearing, Movants objected to introduction of this email
chain (beginning February 20, 2019, and concluding March 12,
2019), Respondents’ Exhibit P, on the basis that it was hearsay.
The trial court overruled the objection based on Respondents’
counsel’s statement that he was introducing the email to show why
the Health Department took the actions taken, but not for the
truth of the matter asserted, i.e., not to show what the CDC
recommendations actually were.

App. 52
Therefore, the possibility of a school closure was being
discussed prior to the threat of a lawsuit. On
February 21, 2019, Mr. Raney made clear, when
implementing the activities ban, that “[i]f cases
continue or if any of these measures are not followed,
additional prevention and control measures may
become necessary.”
Mr. Raney testified the Health Department became
aware of over ten additional cases of varicella at the
school on or about March 12. This made a total of 32
cases, or 13% of the student population. The school ban
was implemented after telephone consultation with Dr.
Doug Thoroughman of the Kentucky Department for
Public Health, on or about March 14. Mr. Raney
further stated the increase in cases between
February 26 and March 14 was “quick and alarming.”
In the case at bar, following a careful review of the
record, we cannot discern an abuse of discretion by the
trial court in finding Movants have not shown a
substantial likelihood of success on the merits of their
First Amendment retaliation claim.
4. Equal protection
“It is a violation of equal protection to treat
similarly situated individuals differently without any
justification.” Roberts v. Mooneyhan, 902 S. W.2d 842,
843 (Ky. App. 1995). Movants argue they were
“targeted” by the Health Department because of their
religious beliefs and their attendant decision to not
vaccinate the children. Strict scrutiny review is applied
to an equal protection claim involving a suspect class or

App. 53
a fundamental right. Commonwealth v. Howard, 969
S.W.2d 700, 702-03 (Ky. 1998).
Movants’ evidence of “targeting” consists of: 1) Mr.
Raney’s purported admission that the Health
Department was “punishing” Movants for exercising
their religious beliefs; and 2) their contention the
Health Department has not imposed similar
restrictions on non-parochial schools. As previously
noted, Mr. Raney’s statement is not necessarily
probative of animus toward Movants.
Moreover, Mr: Raney testified the February 6 letter
was routine, and the Health Department has in the
past issued similar letters for “multiple communicable
diseases,” “especially in schools.” Mr. Raney further
testified the Health Department has issued control
measures in response to influenza outbreaks within the
last four years to “many facilities within our region
throughout Northern Kentucky.” While he stated those
control measures have not included school bans, he
testified that control measures “vary, depending on the
facility type and layout and structure and the staffing.”
He further stated: “[w]e take a lot[] of things into
account when we implement those control measures.”
Because there is a dearth of evidence in the record to
support a claim of animus or targeting, we cannot
discern an abuse of discretion by the trial court as to
this claim.
5. Procedural due process; substantive due
process
For their procedural due process claim, Movants
allege KRS 214.036 “required the adoption of

App. 54
emergency regulation to enact quarantines or other
preventative measures for a specific area.” Movants
further contend a public hearing was required under
KRS 13A.190, which prescribes the procedures for
enactment of emergency regulations.
Under KRS 214.036, the mandate of an emergency
regulation, and any attendant rights enumerated in
KRS Chapter 13A, applies only where the Cabinet for
Health and Family Services seeks to require the
immunization of all persons within the area of
epidemic. In this case, Respondents have not required
or purported to require Movants to be vaccinated for
varicella. Therefore, an emergency regulation was not
necessary, and KRS Chapter 13A does not apply.
“Substantive due process, a much more ephemeral
concept [than procedural due process], protects specific
fundamental rights of individual freedom and liberty
from deprivation at the hands of arbitrary and
capricious government action.” Moffitt v.
Commonwealth, 360 S.W.3d 247, 253 (Ky. App. 2012)
(internal citation omitted).
In Jacobson v. Commonwealth of Massachusetts,
197 U.S. 11, 27, 25 S.Ct. 358, 361-62, 49 L.Ed. 643
(1905), a state statute gave the local health board the
authority to enact a regulation requiring vaccination
“if, in its opinion, it is necessary for the public health
and safety.” Id., 197 U.S. at 12, 25 S.Ct. at 358. A local
health board adopted a regulation requiring
vaccination against smallpox during an outbreak. The
defendant was convicted of violating the regulation,
and he alleged the statute and regulation deprived him

App. 55
of due process of law. Id., 197 U.S. at 13, 25 S.Ct. at
359. In affirming the judgment, the Court held:
it is to be observed that the legislature of
Massachusetts required the inhabitants of a city
or town to be vaccinated only when, in the
opinion of the board of health, that was
necessary for the public health or the public
safety. The authority to determine for all what
ought to be done in such an emergency must
have been lodged somewhere or in some body;
and surely it was appropriate for the legislature
to refer that question, in the first instance, to a
board of health composed of persons residing in
the locality affected, and appointed, presumably,
because of their fitness to determine such
questions. To invest such a body with authority
over such matters was not an unusual, nor an
unreasonable or arbitrary, requirement. Upon
the principle of self-defense, of paramount
necessity, a community has the right to protect
itself against an epidemic of disease which
threatens the safety of its members.
Id., 197 U.S. at 27, 25 S.Ct. at 361-62 ( emphasis
added). See also Mosier, 215 S.W.2d at 969 (citing
Jacobson). In the instant case, we cannot conclude the
circuit court abused its discretion in finding Movants
did not show they were likely to prevail on their
substantive due process claim. Similar to Jacobson, the
statutes and regulations implemented in Kentucky do
not appear to be unreasonable or arbitrary.

App. 56
C. Equities of the Situation
In weighing the equities of the situation, the circuit
court “should consider such things as possible
detriment to the public interest, harm to the defendant,
and whether the injunction will merely preserve the
status quo.” Maupin, 575 S.W.2d at 699.
The Health Department asserted an injunction
would endanger public health. It argued it had
implemented narrowly-crafted measures to control the
outbreak, pursuant to applicable regulations.
Movants have educational and religious rights at
stake. Movants argue the issuance of an injunction
would not threaten the public health because a
sufficient control measure would be to ban only the
symptomatic children. As previously noted, this
argument was contradicted at the hearing by testimony
to the effect that varicella is contagious even before the
rash appears.
The circuit court adequately weighed the equities of
the situation in denying Movants’ motion for a
temporary injunction. “[W]e give considerable
deference to the circuit court’s evaluation of the
dispute, the issues involved, the weighing of the
equities, and whether an injunction is proper under the
particular circumstances at hand.” Boone Creek
Properties, LLC v. Lexington-Fayette Urban Cty. Bd. of
Adjustment, 442 S.W.3d 36, 38 (Ky. 2014). See also
Yakus v. United States, 321 U.S. 414, 440, 64 S.Ct. 660,
675, 88 L.Ed. 834 (1944) (citations omitted) (“The
award of an interlocutory injunction by courts of equity
has never been regarded as strictly a matter of right,

App. 57
even though irreparable injury may otherwise result to
the plaintiff. . . . [W]here an injunction is asked which
will adversely affect a public interest for whose
impairment, even temporarily, an injunction bond
cannot compensate, the court may in the public interest
withhold relief until a final determination of the rights
of the parties, though the postponement may be
burdensome to the plaintiff.”).
II. CONCLUSION
WHEREFORE, Respondents’ motion to supplement
their brief is GRANTED. Movants’ motion for
interlocutory relief under CR 65.07 is DENIED. The
motion for oral argument is DENIED.
ENTERED: JUN 26 2019
/s/
JUDGE, COURT OF APPEALS

App. 58

APPENDIX C
Supreme Court of Kentucky
2019-SC-000359-I
[Filed August 29, 2019]
________________________________________________
JEROME KUNKEL; SEANTE CARTER, AS
)
NEXT FRIEND AND GUARDIAN OF AC, EC,
)
MC, OC, NC, SC, AND RC, MINORS;
)
CHRISTINA BELL, AS NEXT FRIEND AND
)
GUARDIAN OF GB, CB, GB2, CB2,
)
AND GB3, MINORS, MARIA KUNKEL AS NEXT )
FRIEND AND GUARDIAN OF NK, CK, RK,
)
SK, AK, MK, AND GK, MINORS; AND DAVID
)
KUNKEL AS NEXT FRIEND AND GUARDIAN
)
OF CK2, DK, VK, IK, LK, AND DK2, MINORS
)
MOVANTS
)
)
V.
)
)
NORTHERN KENTUCKY INDEPENDENT
)
HEALTH DISTRICT, ZACH RANEY, LYNNE
)
M. SADDLER, MD, AND UNKNOWN
)
DEFENDANTS 1-10
)
RESPONDENTS
)
_______________________________________________ )
ON REVIEW FROM COURT OFAPPEALS
CASE NO. 2019-CA-000575
BOONE CIRCUIT COURT NO. 1-CI-00357

App. 59
ORDER DENYING PETITION
FOR CR 65.09 RELIEF
The Court has considered the movants’ CR 65.09
motion and the respondents’ response and determines
that the trial court did not abuse its discretion in
denying the movants’ motion for a temporary
injunction, and we find both the trial court and the
Court of Appeals to have adequately addressed the
issues presented by the movants’ request. Accordingly,
the Court DENIES the motion.
All sitting. All concur.
ENTERED: August 29, 2019.
/s/
CHIEF JUSTICE

App. 60

APPENDIX D
U.S. Const., Amend I.
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or
of the press; or the right of the people peaceably to
assemble, and to petition the government for a redress
of grievances.
U.S. Const., Amend XIV.
Section 1.
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they reside.
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
Section 2.
Representatives shall be apportioned among the
several states according to their respective numbers,
counting the whole number of persons in each state,
excluding Indians not taxed. But when the right to vote
at any election for the choice of electors for President
and Vice President of the United States,

App. 61
Representatives in Congress, the executive and judicial
officers of a state, or the members of the legislature
thereof, is denied to any of the male inhabitants of such
state, being twenty-one years of age, and citizens of the
United States, or in any way abridged, except for
participation in rebellion, or other crime, the basis of
representation therein shall be reduced in the
proportion which the number of such male citizens
shall bear to the whole number of male citizens
twenty-one years of age in such state.
Section 3.
No person shall be a Senator or Representative in
Congress, or elector of President and Vice President, or
hold any office, civil or military, under the United
States, or under any state, who, having previously
taken an oath, as a member of Congress, or as an
officer of the United States, or as a member of any
state legislature, or as an executive or judicial officer of
any state, to support the Constitution of the United
States, shall have engaged in insurrection or rebellion
against the same, or given aid or comfort to the
enemies thereof. But Congress may by a vote of
two-thirds of each House, remove such disability.
Section 4.
The validity of the public debt of the United States,
authorized by law, including debts incurred for
payment of pensions and bounties for services in
suppressing insurrection or rebellion, shall not be
questioned. But neither the United States nor any
state shall assume or pay any debt or obligation
incurred in aid of insurrection or rebellion against the

App. 62
United States, or any claim for the loss or
emancipation of any slave; but all such debts,
obligations and claims shall be held illegal and void.
Section 5.
The Congress shall have power to enforce, by
appropriate legislation, the provisions of this article.

